Audit of USAID/Ethiopia’s Implementation of
The President’s Emergency Plan for AIDS Relief
Audit Report Number 9-663-05-005-P

March 30, 2005




                   Washington, D.C.
     March 30, 2005


     MEMORANDUM
     FOR:                 USAID/Ethiopia Director, William Hammink

     FROM:                IG/A/PA Director, Nathan S. Lokos /s/

     SUBJECT:             Final Report on Audit of USAID/Ethiopia’s Implementation of the President’s
                          Emergency Plan for AIDS Relief (Report No. 9-663-05-005-P)

     This memorandum transmits our final report on the subject audit. In finalizing our report,
     we considered your comments on our draft report and have included your response in its
     entirety in Appendix II.

     This report includes recommendations that USAID/Ethiopia 1) request that USAID’s
     Regional Economic Development Services Office for East and Southern Africa fund
     HIV/AIDS prevention activities along the Djibouti side of the Djibouti-Addis Ababa High-
     Risk Corridor, 2) engage the U.S. Government Emergency Plan Team to secure the additional
     funds necessary to attain fiscal year 2005 care targets, 3) leverage its scarce resources by
     coordinating with the other Emergency Plan agencies to hold periodic information-sharing
     sessions for partners, 4) require that its partners develop strategies for the sustainability of
     their activities, and 5) coordinate with the U.S. Government country team to request
     Emergency Plan funding for food assistance in connection with treatment programs. In your
     written comments, you concurred with all five recommendations.

     Management decisions have been reached for Recommendations 1 through 4. Moreover,
     final action has been taken on Recommendations 2 and 3 upon issuance of this report. Please
     provide documentation supporting final action on Recommendations 1 and 4 to USAID’s
     Office of Management Planning and Innovation.

     Regarding Recommendation No. 5, while we commend the Mission for exploring
     alternatives to address the issue of food needs, we do believe that Emergency Plan funding
     for food assistance in connection with treatment programs is a potentially important source of
     funds that should be pursued. Accordingly, a management decision has not been reached for
     Recommendation No. 5. Please provide written notice within 30 days of any additional
     actions planned or taken to implement Recommendation No. 5.

     I want to express my sincere appreciation for the cooperation and courtesy extended to my
     staff during the audit.



U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
This page intentionally left blank.




                                      2
Table of   Summary of Results....................................................................................... 5
Contents
           Background ................................................................................................... 5

           Audit Objectives ............................................................................................ 7

           Audit Findings ............................................................................................... 7

                     How has USAID/Ethiopia participated in the President’s
                     Emergency Plan for AIDS Relief activities? ..................................... 7

                     Did USAID/Ethiopia’s HIV/AIDS activities progress
                     as expected towards planned outputs in their grants, cooperative
                     agreements and contracts?..................................................................11

                     Are USAID/Ethiopia’s HIV/AIDS activities contributing to the
                     overall U.S. Government’s Emergency Plan targets? .......................15

                                Part of an Important Emergency Plan Prevention
                                Program Ended as of December 2004…….......................... 16

                                Achievement of Future Care Targets is at Risk................... 18

                                Periodic Information-Sharing Sessions Would
                                Leverage Scarce Resources ……………………................. 19

                                Partners Should Develop Strategies for Sustainable
                                Activities ………….…………..……………….................... 20

                                Food Aid Funding Should Be Requested For
                                Emergency Plan Treatment Programs …..………………......22

           Evaluation of Management Comments.......................................................... 23

           Appendix I – Scope and Methodology .......................................................... 25

           Appendix II – Management Comments......................................................... 27

           Appendix III – List of Acronyms................................................................... 31




                                                                                                                              3
This page intentionally left blank.




                                      4
Summary of   This audit, performed by the Office of Inspector General’s Performance Audits
Results      Division, is the pilot in a series of audits to be conducted by the Office of
             Inspector General. The objectives of this audit were to determine (1) how
             USAID/Ethiopia participated in the President’s Emergency Plan for AIDS Relief
             activities, (2) whether USAID/Ethiopia's HIV/AIDS activities progressed as
             expected towards planned outputs in their agreements and contracts, and (3)
             whether USAID/Ethiopia's HIV/AIDS activities contributed to the overall U.S.
             Government's Emergency Plan targets. (See page 7.)

             As a result of our audit, we concluded that USAID/Ethiopia has a principal role in
             the President’s Emergency Plan for AIDS Relief activities in Ethiopia for
             HIV/AIDS prevention and care, as well as a major supporting role for HIV/AIDS
             treatment; its partners were progressing as expected towards meeting planned
             outputs in their agreements; and USAID/Ethiopia’s HIV/AIDS activities are
             contributing significantly to the overall U.S. Government’s Emergency Plan care
             and treatment targets for fiscal year 2004. (See pages 7, 11, and 15.)

             This report includes recommendations that USAID/Ethiopia 1) request that
             USAID’s Regional Economic Development Services Office for East and Southern
             Africa fund HIV/AIDS-prevention activities along the Djibouti side of the
             Djibouti-Addis Ababa High-Risk Corridor, 2) engage the U.S. Government
             Emergency Plan Team to secure the additional funds necessary to attain fiscal
             year 2005 care targets, 3) leverage its scarce resources by coordinating with the
             other Emergency Plan agencies to hold periodic information-sharing sessions for
             partners 4) require that its partners develop strategies for the sustainability of their
             activities and 5) coordinate with the U.S. Government country team to request
             Emergency Plan funding for food assistance in connection with treatment
             programs. (See pages 17, 19, 20, 21 and 23.) Management concurred with all five
             recommendations and management decisions have been reached on four of those
             recommendations. See page 23 for our evaluation of management’s comments.

             Management’s comments are included in their entirety in Appendix II.


Background   Congress enacted legislation to fight HIV/AIDS internationally through the
             President’s Emergency Plan for AIDS Relief (Emergency Plan). The $15 billion,
             5-year program provides $9 billion in new funding to speed up prevention, care
             and treatment services in 15 focus countries.1 The Emergency Plan also devotes
             $5 billion over five years to bilateral programs in more than 100 countries and
             increases the U.S. pledge to the Global Fund2 by $1 billion over five years.
             1
               Botswana, Cote d’Ivoire, Ethiopia, Kenya, Mozambique, Namibia, Nigeria, Rwanda, South
             Africa, Tanzania, Uganda, and Zambia in Africa; Guyana and Haiti in the Caribbean; and Vietnam
             in Asia.
             2
              The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis
             and malaria.


                                                                                                         5
The fiscal year 2004 budget for the Emergency Plan totals $2.4 billion. Of this
amount, $43 million is being used primarily in support of quickly expanding
integrated prevention, care and treatment programs in Ethiopia, which is one of
the 15 focus countries. Ethiopia has a population of 71 million people, of which
1.5 million are infected with HIV. The overall adult prevalence rate3 was
estimated to be 4.4 percent in 2003, with significant regional and urban/rural
variations. Due to the lack of infrastructure in rural areas, the capacity to provide
services addressing HIV/AIDS is severely limited.

It is estimated that annually, 170,000 HIV-infected pregnant women in Ethiopia
give birth and that 60,000 of those newborns are infected with HIV through
mother-to-child transmission. Moreover, there are currently 539,000 children in
country that have been orphaned due to HIV/AIDS.

The U.S. President and Congress have set aggressive goals for addressing the
worldwide HIV/AIDS pandemic. The world-wide goal over five years is to provide
treatment to 2 million HIV-infected people, prevent 7 million HIV infections and
provide care to 10 million people infected by HIV/AIDS, including patients and
orphans. The Department of State’s Office of the Global AIDS Coordinator
(O/GAC)—which coordinates the U.S. Government’s (USG) fight against
HIV/AIDS internationally—divided these Emergency Plan targets among the 15
focus countries and allowed each country to determine its own methodology for
achieving their portion of the assigned targets by the end of five years. The U.S.
Government mission in Ethiopia (Emergency Plan Team) committed to achieving
the following targets4 by March 31, 2005:

    Total # Infections           Total # of People            Total # of People
    Averted                      Receiving Care and           Receiving Antiretroviral
                                 Support                      Therapy
    61,500                       92,000                       15,000

The Emergency Plan is directed by the Global AIDS Coordinator and
implemented collaboratively by country teams made up of staff from USAID, the
Department of State, the Department of Health and Human Services, and other
U.S. Government agencies. Within USAID, the Bureau for Global Health has
general responsibility for USAID’s participation in the Emergency Plan. More
specifically, the Director of Global Health’s Office of HIV/AIDS provides the
technical leadership for USAID’s HIV/AIDS programs.


3
  The prevalence rate is defined as the number of cases of a disease during a particular interval of
time, expressed as a rate.
4
 The infections averted (prevention) target comes from the Ethiopia fiscal year 2004 Country
Operating Plan.



                                                                                                  6
Audit            As part of the Office of Inspector General’s fiscal year 2005 annual audit plan,
Objectives       this audit was conducted as a pilot for a series of worldwide audits of USAID’s
                 implementation of the President’s Emergency Plan for AIDS Relief. The audit
                 was conducted to answer the following questions:

                 •   How has USAID/Ethiopia participated in the President’s Emergency Plan for
                     AIDS Relief activities?

                 •   Did USAID/Ethiopia's HIV/AIDS activities progress as expected towards
                     planned outputs in their grants, cooperative agreements and contracts?

                 •   Are USAID/Ethiopia's HIV/AIDS activities contributing to the overall U.S.
                     Government's Emergency Plan targets?


                 Appendix I contains a discussion of the audit’s scope and methodology.


Audit Findings   How has USAID/Ethiopia participated in the President’s Emergency Plan
                 for AIDS Relief activities?

                 The President’s Emergency Plan work and targets are divided into three broad
                 categories: prevention, care and treatment. USAID/Ethiopia has a principal role in
                 Emergency Plan activities in Ethiopia for prevention and care, as well as a major
                 supporting role for HIV/AIDS treatment. The Mission’s efforts in these areas are
                 detailed below.

                 Prevention

                 The Office of the Global AIDS Coordinator (O/GAC) published guidance
                 dividing the broad category of prevention into the following initiatives:

                 •   Prevention of Mother-to-Child Transmission (PMTCT),

                 •   Abstinence/Be Faithful,

                 •   Medical Transmission/Blood Safety,

                 •   Medical Transmission/Injection Safety and

                 •   Other Prevention.

                 USAID/Ethiopia had a major role in initiatives 1, 2, and 5.


                                                                                                 7
Prevention of Mother-to-Child Transmission (PMTCT) – An estimated
107,000 HIV-infected Ethiopian women gave birth in 2003. Because Ethiopia’s
healthcare infrastructure is extremely weak, PMTCT programs had to not only
include the provision of PMTCT services but also strengthen the physical
infrastructure, logistics system and human capacity of each implementation site
before the needed services could be provided. Twenty-three sites (10 hospitals
and 13 health centers) were selected as pilot sites for the implementation of
PMTCT programs. This project, which USAID/Ethiopia helped to establish in
conjunction with the Ethiopian Ministry of Health in 2001, is locally known as
“The Hareg5 Project”.

Abstinence/Be Faithful – USAID/Ethiopia’s overall prevention programming is
based on the “ABC” model where the “A” stands for abstinence, the “B” for “be
faithful” and the “C” for condoms. The Emergency Plan legislation requires that
one third of prevention funding be allocated to abstinence programs.

USAID/Ethiopia and its partners believe that it is critical to target young people
through prevention programs. Accordingly, the Mission funds anti-AIDS clubs to
train peer leaders to promote abstinence or delay sexual debut. Other prevention
programs include strengthening clinics for counseling and support of pregnant
women, church programs, public rallies, and development of multi-media
materials to convey prevention messages to young adults.

The goal of abstinence and faithfulness programs is to avoid new HIV infections
by reducing high-risk behavior. Many surveys indicate that even though
HIV/AIDS awareness is very high in Ethiopia, behavioral change does not
necessarily result from increased awareness alone. USAID/Ethiopia’s partners
have identified the most-at-risk populations, such as youth and taxi drivers, and
have found ways to reach these groups to effectively promote behavioral change.

Other prevention initiatives – USAID/Ethiopia also has specific initiatives
directed at high-risk groups. For example, one partner provides refresher training
for bar and hotel owners to support condom use by truck drivers and commercial
sex workers who engage in high-risk behavior.

Care

USAID/Ethiopia is taking the lead in administering the Emergency Plan Team’s
care programs in Ethiopia. To establish consistency in reporting, the O/GAC
published guidance dividing the broad category of care into:

•   Voluntary counseling and testing.

5
 The word Hareg is Amharic for a type of vine that grows everywhere, like kudzu, implying a
“helping hand.”



                                                                                         8
•   Palliative care.

•   Care for orphans and vulnerable children.

Voluntary counseling and testing (VCT) – VCT is a point of entry for
HIV/AIDS care, prevention and treatment programming. VCT serves a variety of
purposes, one of which is determining eligibility for services. For this reason,
USAID/Ethiopia’s goal was to establish an additional 208 VCT sites in FY 2004.

Although USAID/Ethiopia had been assisting the Government of Ethiopia in
laying the foundation for care programming several years prior to when the
Emergency Plan was initiated in 2003, all existing U.S. HIV/AIDS programs in
the 15 focus countries became part of the Plan. In order to accelerate results in
these countries, the O/GAC both initiated new activities and provided funding to
augment existing HIV/AIDS programs. During 2004, USAID’s 10 existing care
programs in Ethiopia received funding increases totaling approximately $7.7
million, and USAID successfully launched 23 new Voluntary Counseling and
Testing sites at the health center level.

As mentioned previously under “Prevention,” USAID is collaborating with the
host government to strengthen VCT sites in conjunction with PMTCT services at
23 prenatal clinics as part of the Hareg project. VCT is a prerequisite for PMTCT
services. A pregnant woman who tests positive for HIV/AIDS is provided
counseling in ways to reduce the risk of spreading the virus. The primary
inducement for women to agree to testing is the opportunity to receive
nevirapine,6 an FDA-approved drug that reduces the risk of transmission of the
AIDS virus from mother to child from 50 percent to 25 percent. While the U.S.
Government ramps up its other antiretroviral treatment, nevirapine has served as
an important incentive for women—who otherwise would see little to no benefit
in knowing their HIV/AIDS status—to get tested.7

Palliative care – Since most of USAID’s palliative care programs rely on the
unpaid services of community volunteers, USAID supplies volunteers with
medical kits and some training. Due to the stigma and discrimination surrounding
HIV/AIDS, people throughout Ethiopia are reluctant to admit being positive.

USAID also supports the Missionaries of Charity, an organization founded by
Mother Theresa that established 15 hospices in Addis Ababa and throughout
Ethiopia to provide palliative care to the destitute. Actual services provided under
6
 Recent concerns about the safety of nevirapine have proven to be false, according to the National
Institutes of Health (NIH) and the World Health Organization. According to NIH, single-dose
nevirapine is a safe and effective regimen for blocking mother-to-infant HIV transmission.
7
 If the mother tests HIV-positive, the health facility will give nevirapine to the mother at the onset
of labor, and then give it to the child within 72 hours after birth.



                                                                                                    9
the category of care and support varies widely, but all of USAID’s partners told
us that food aid is the essential factor for extending the life of people living with
HIV/AIDS. As this report discusses more fully under the treatment section of
Objective No. 3, food aid is essential for prolonging life and averting
opportunistic infectious diseases.

Care and Support for Orphans and Vulnerable Children - This is an
important component of the overall Emergency Plan agenda. As a result of the
high numbers of parents dying from HIV/AIDS, there are over 539,000 children
orphaned by HIV/AIDS in Ethiopia. These children need financial support to pay
for food, housing, school fees, and health care. USAID has four partners that
carry out programs to provide assistance to orphans. Instead of building
orphanages to care for these children, USAID and its partners have found it is
more effective to place the children with families in the community. The
Regional Government of Tigray in partnership with NGOs working in this area
has standardized the amount that each orphan receives for their support at 100 birr
per month (about $13). Some of USAID’s partners encourage orphans to buy
livestock with their monthly allowance to establish an ongoing means of support
in case funding is reduced or stops.

Treatment

USAID is playing a major supporting role in administering the Emergency Plan
Team’s treatment programs in Ethiopia. Treatment reporting categories were
divided into (1) antiretroviral (ARV) drugs, (2) ARV Services and (3) laboratory
infrastructure.

ARV drugs – USAID/Ethiopia selected Rational Pharmaceutical Management
Plus (RPM Plus) to develop a procurement plan for acquiring ARV drugs. The
primary objective of the procurement plan is to ensure that essential items for
PMTCT and Antiretroviral Therapy (ART) are available at project sites. RPM
Plus was given responsibility for the procurement of all ARVs in Ethiopia under
the Emergency Plan. At the time of our audit, procurement of ARVs was done by
private importers for fee-paying patients. RPM Plus planned to coordinate the
process of selection and quantification of ARVs to be obtained and assure that
this list of products reflects Ethiopian treatment guidelines, program priorities and
available funding.

ARV Services - In Ethiopia, the public sector has minimal experience in storing
and distributing ARVs. Distribution of the ARV drugs involves several steps that
include receipt, custody, storage, control and issuance of those drugs. The ARV
distribution system under RPM Plus’s agreement requires timely reporting. The
Ethiopian government’s current capacity to handle the distribution of ARVs for
the Emergency Program is limited. Therefore, RPM Plus provides technical and
material assistance so facilities can strengthen their overall capacity to safely and
securely:



                                                                                  10
   •   store drugs.

   •   distribute drugs.

   •   monitor stocks of drugs.

   •   maintain accurate and timely records.

   •   ensure the quality of drugs in stock.

Efforts include a plan to strengthen the health information system so that it can,
among other things, feed information from pharmacy dispensaries into the overall
HIV-monitoring system, thereby limiting the recording and reporting burden of
health facilities. This is important because a proper record-keeping system serves
many purposes such as providing the accurate data required for future
procurements, patient tracking, and adherence to treatment regimes.

Laboratory infrastructure – The RPM Plus work plan also includes
requirements for improving the infrastructure of selected pharmacies, drug stores
and laboratories to ensure security and quality of PMTCT/ART and related
products provided under the program. Computers and appropriate stock
management software will be provided. The importance attached to storage is
very high. Storage conditions affect the safety and quality of drugs: if drugs are
stored in humid and unventilated conditions their stability is compromised.
Moreover, some drugs have to be refrigerated during transport and storage, which
is another concern that must be addressed. Finally, infrastructure plans call for
supplying space to provide confidential treatment and counseling.

Did USAID/Ethiopia’s HIV/AIDS activities progress as expected towards
planned outputs in their grants, cooperative agreements and contracts?

We found that USAID/Ethiopia’s activities were progressing as expected towards
meeting planned outputs contained in agreements and contracts with the
Mission’s partners. At the time of our audit fieldwork, those partners had until
March 31, 2005 to achieve planned outputs.

The following are some examples of how the Mission’s activities were
progressing toward planned outputs.

Prevention

USAID partners reported significant outputs in providing prevention under the
categories of 1) Prevention of Mother-to-Child Transmission (PMTCT), 2)
Abstinence/Be Faithful, and 3) Other Prevention Initiatives.




                                                                               11
Prevention of Mother-to-Child Transmission (PMTCT) - One of USAID’s
prevention partners, Intrahealth, has a program to establish a full package of
PMTCT community and clinical training at 13 health centers and community
training at 10 hospitals to support the USG activities. We visited two PMTCT
clinics in Axum. In one of those clinics, 600 pregnant women had been
counseled, 295 had been tested and 23 were found to be HIV-positive. Of the 23
who tested positive, 8 opted to use nevirapine. At the second clinic, 236 women
had been HIV-tested in the prior 6 months: 12 tested positive and 5 took
nevirapine.

Abstinence/Be Faithful - The abstinence and faithfulness partners had planned a
number of activities focused only on promoting abstinence and faithfulness,
whereas some other partners also endorsed condoms. These activities included,
but were not limited to, youth clubs, Orthodox Church rallies,8 and leadership
training for taxi drivers and police officers. We observed a John Hopkins
University Health Communications Partnership training session of youth club
leaders in Mekele. These youth ranged from approximately 18 to 30 years old.
At the end of the session, participants reported that they believed they were
capable of training other people in the lessons they had learned.

Other prevention initiatives - Three partners had programs concentrating on
most-at-risk populations, such as vulnerable women. The Relief Society of Tigray
(REST), a local NGO, provided print materials, advocacy and peer education, and
condom education and distribution. We visited a REST anti-AIDS club in
Workru for girls 15 to 24 years old. At this club, 82 girls meet twice a week and
participate in dramas, poems and debates on HIV/AIDS.

Care

We found that USAID/Ethiopia’s care partners were progressing as expected
towards meeting planned outputs in their agreements. USAID partners reported
significant outputs in providing care under all U.S. Government categories of 1)
voluntary testing and counseling (VCT), 2) palliative care and 3) care for orphans
and vulnerable children.

While USAID’s partners are, in general, making good progress towards achieving
their planned outputs for care, we noticed that the indicators for palliative care
and OVC were too vague and that some terms were undefined so as to prevent
meaningful interpretation of results. For example, one output indicator was to
“improve the lives of 4,500 OVC and their families/caregivers in 6 communities.”
USAID/Ethiopia told us that the Office of the U.S. Global AIDS Coordinator
(O/GAC) plans to address this problem by developing clear indicators for OVC

8
 The Ethiopian Orthodox Church plans to deliver public rallies to approximately 3 million people,
of which at least 3 rallies had been conducted by September 30, 2004. The Patriarch of the
Ethiopian Orthodox church will lead at least five of the rallies.



                                                                                              12
and palliative care in fiscal year 2005, as well as clear guidance for defining, for
example, a “vulnerable child”. As of January 2005, O/GAC had created a
working group–which includes representatives from USAID—to develop this
guidance.

Voluntary Counseling and Testing – USAID maintained two agreements to
develop VCT services in urban and rural health centers. We met with several
rural health workers at USAID-funded clinics9 who were strongly committed to
promoting VCT, despite the fact that they face a difficult battle against the stigma
associated with HIV/AIDS testing. During a visit to a rural health center in a
remote region of Ethiopia, we verified that this commitment was matched by
careful record-keeping. When we asked to see the patient log for a VCT project,
we observed that the records were locked securely in a filing cabinet to which
only two people had access and that patients were assigned numbers to protect
their privacy. The health workers maintained the records carefully and neatly,
even though the data indicated that most women who received counseling were
not willing to be tested. We noted that the outputs tracked in the ledger, such as
“number of women who received counseling and agreed to be tested,” matched
the partner’s reporting data exactly.

Palliative care – USAID/Ethiopia provided funding to Catholic Relief Services to
support 15 HIV/AIDS hospices in Ethiopia. During our visit, we toured two of
these hospices, one in the capital city and the other in a rural area. We observed
activities such as food preparation and occupational therapy, as well as the
administration of traditional palliative care for patients who were very near death.
While the need for palliative care in Ethiopia is far greater than the capacity of
these homes, the facilities were efficient, well-managed and staffed by dedicated
nuns.

USAID/Ethiopia maintained agreements with two partners to develop home-based
palliative care services in local communities. As part of our fieldwork, we
accompanied unpaid volunteers to the homes of patients. The volunteer’s role was
to bring food, assist with pain management, and help with the laundry and
cleaning. We learned that volunteers are important because, often when a person
becomes visibly sick with HIV/AIDS, they are rejected by friends and family due
to the stigma associated with HIV and AIDS. We observed first-hand that the
home-bound patients relied on the visits from volunteers for their survival. The
volunteers demonstrated a good knowledge of each patient’s condition, reflecting
long-term care-giving relationships. Moreover, the volunteers told us that the
semi-professional medical training they received from USAID’s partners, along
with their medical kits, were important to the quality of service they were able to
provide.



9
  We met with nurses who worked in rural maternity clinics that were partially funded by USAID
through partners such as Family Health International or Save the Children.


                                                                                            13
Care for Orphans and Vulnerable Children (OVC) - USAID/Ethiopia
maintained agreements with three partners to support programs to improve the
lives of 10,000 orphans and caregivers in semi-urban and urban communities. We
visited the home of one HIV/AIDS orphan and saw the cow she was encouraged
to purchase with her OVC support. The cow had recently given birth to a calf.
The cow should provide a regular and sustained source of income.




            Photograph taken November 16, 2004 by an OIG auditor of a
            child orphaned by HIV/AIDS. The cow was provided by a
            government program to provide a means of sustainable support.

We also met with two church groups of orphans and their caretakers. Instead of
encouraging orphans to purchase livestock, this USAID partner was providing
direct financial support to orphans so they could pay for health care, education
and food. (See page 19 for a discussion on how information-sharing between
USAID’s partners can enhance program sustainability.)

Treatment

USAID/Ethiopia’s partner, RPM Plus, was progressing as expected towards the
planned outputs in its agreement. RPM Plus helped to determine the quantities of
antiretroviral drugs (ARVs) to be procured with USG funds by providing relevant
country-specific information, comments and organizing telephone conferences
between the Ethiopian Ministry of Health (MOH), USAID, and Centers for
Disease Control and Prevention (CDC) to discuss drug selection and
quantification. At the time of our field visit, the USAID mission was in the
process of purchasing the ARVs. The ARVs were subsequently purchased and
were to be shipped to Ethiopia in two consignments, one expected to be delivered
in December and the other by February/March 2005. The $3 million of procured



                                                                             14
ARVs would be the estimated amount required to treat 15,000 persons for six
months, including a one-month safety stock.

RPM Plus also worked to improve the infrastructure of selected pharmacies, drug
stores and laboratories in order to make sites ready for the initiation of ART. This
activity consisted primarily of technical assistance, such as preparing renovation
plans for the pharmacies and drug stores of hospitals and health centers. We
visited one hospital in the Tigray region that was located in the city of Axum and
was one of the planned hospitals that would start ARV treatment, once drugs were
available. We toured the hospital’s VCT facility, the PMTCT center and the
HIV/AIDS testing laboratory and met with hospital doctors. They estimated that
50 percent of their patients were HIV-positive.

Are USAID/Ethiopia’s HIV/AIDS activities contributing to the overall U.S.
Government’s Emergency Plan targets?

USAID/Ethiopia’s HIV/AIDS activities are contributing significantly to the
overall U.S. Government’s Emergency Plan care and treatment targets for fiscal
year 2004. In the area of prevention, however, O/GAC is reviewing its
methodologies for measuring the impact of prevention activities on ABC targets,
which comprise 94 percent of prevention targets. Accordingly, it was not possible
to determine USAID’s contribution to those targets. Nevertheless, for care,
USAID/Ethiopia’s activities contributed 45 percent of the Emergency Plan
Team’s targets for palliative care, 150 percent of the OVC activities and 88
percent for VCT. In the area of treatment, USAID played a major supporting role
by completing the procurement of the necessary ARV drugs needed for treating
HIV/AIDS patients.

USAID/Ethiopia’s important role in meeting Emergency Plan targets is also
reflected in the fact that it received $24.3 million out of the $43.0 million
budgeted for the overall U.S. Government effort in Ethiopia. While the
Emergency Plan Team should have no trouble meeting most of its fiscal year
2004 targets that are due March 200510, as discussed below, there are potential
impediments to achieving targets for future years.

Prevention

O/GAC is planning to perform a survey to determine whether prevention targets
in Ethiopia have been achieved. However, this survey will not take place until
2006, at the earliest. In the absence of such a survey, we could not determine
USAID/Ethiopia’s contribution to the USG’s target of preventing 61,500
infections (58,000 non-PMTCT and 3,500 PMTCT). For fiscal year 2004
prevention activities, USAID received $8.0 million (of which $2.8 million was for

10
  While we did not find any O/GAC directive stating the March 2005 deadline, Mission Officials
and most partners stated that they were working towards meeting this timeframe.



                                                                                            15
providing PMTCT services) out of the $11.8 million budgeted for the U.S.
Government in Ethiopia.

Nevertheless, we did determine that the reported number of PMTCT-prevented
infections fell significantly short of the target of 3,500. The number of pregnant
women who received a complete course of antiretroviral prophylaxis (nevirapine)
in a PMTCT setting, reported as of September 30, 2004, was 143. Even if
PMTCT infections were prevented in all 14311 cases, the number of PMTCT
infections prevented would fall significantly short of the 3,500 target.

In the future, meeting PMTCT targets could be increasingly challenging. The
PMTCT target increases to 10,000 in fiscal year 2005 and 44,000 at the end of the
Emergency Plan (2008). Since only 6 to 10 percent of Ethiopian women give
birth in a health facility, it will become more difficult to draw enough pregnant
women to PMTCT clinics to be tested and if HIV-positive, to offer them the
nevirapine option and have an increasing number of women take nevirapine.
Moreover, the USAID/Ethiopia activities on the Djibouti-Addis Ababa High-Risk
Corridor were extended until 2008. However, since December 2004, the activities
have been limited to the Ethiopia side of the border, which could also hinder
USAID/Ethiopia’s progress in contributing to Emergency Plan targets.

Part of an Important Emergency Plan Prevention
Program Ended as of December 2004

Ethiopia is a land-locked country and Djibouti, a neighboring country, has the
only port servicing all of Ethiopia. As a result, the two major transportation
routes between Addis-Ababa and the port in Djibouti are heavily traveled. This
stretch of highway is called the Djibouti-Addis Ababa High-Risk Corridor
(Corridor). The original HIV/AIDS prevention program in both countries along
the Corridor began in 2001, under an agreement between USAID/Ethiopia and
Save the Children USA. At that time there was no USAID Mission in Djibouti.




11
  The total of 143 represents the number of women treated by USAID/Ethiopia in conjunction
with the Centers for Disease Control. We were unable to determine USAID’s precise role because
the figure comes from the Government of Ethiopia, Intrahealth and JHPIEGO (a CDC partner).
Intrahealth, a USAID partner, assists in the process of reporting this data, and the figure is
reflected in its October 2004 report. Ultimately, the figure of 143 could be traced, via regional
health centers, to individual health centers.


                                                                                              16
                Map of Djibouti-Addis Ababa High-Risk Corridor

USAID/Ethiopia has identified the Corridor as an important area to concentrate
prevention programs in its five-year Emergency Plan strategy. Truck drivers have
a high risk of becoming infected with HIV/AIDS from commercial sex workers
along the route and in Djibouti City and then spreading the virus along the
Corridor into Ethiopia.

In 2004, USAID opened a mission to Djibouti. As a result, USAID/Ethiopia was
no longer able to fund the Djibouti portion of the High-Risk Corridor Program.
Moreover, since Djibouti is not an Emergency Plan focus country, it receives no
Emergency Plan funds which could be applied to prevention programs.
Consequently, the effectiveness of USAID/Ethiopia’s prevention programs may
be compromised by persons entering the country via the Corridor from Djibouti,
who have not learned how to prevent the transmission of HIV/AIDS or reduce
risk behavior. This vulnerability could hinder USAID/Ethiopia’s progress in
contributing to Emergency Plan prevention targets.12 We are making the
following recommendation to address this situation.

        Recommendation No. 1: We recommend that USAID/Ethiopia
        request that USAID’s Regional Economic Development
        Services Office for East and Southern Africa fund HIV/AIDS-
        prevention activities along the Djibouti side of the Djibouti-
        Addis Ababa High-Risk Corridor.




12
  O/GAC officials noted that they were aware of a similar situation in Zambia and recommended
that USAID/Ethiopia officials consult with their colleagues at USAID/Zambia.


                                                                                           17
Care

USAID/Ethiopia’s HIV/AIDS activities are making a major contribution to the
overall U.S. Government’s Emergency Plan targets for care. To meet targets in
the area of care, the Emergency Plan Team has relied heavily on USAID’s long-
term experience administering HIV/AIDS activities in Ethiopia. In fact, USAID
is contributing almost all of the reporting data towards U.S. Government care
targets in that country. As the chart below indicates, USAID contributed 94
percent of the Emergency Plan results reported as of September 30, 2004 for
palliative care, and 100 percent of the results under both OVC and VCT. As of
September 30, 2004, USAID had already achieved 45 percent of the U.S.
Government targets for palliative care, 150 percent for OVC activities and 88
percent for VCT.

In terms of funding for fiscal year 2004 care activities, USAID received $8.7
million out of the $10.5 million budgeted for the Emergency Plan Team in
Ethiopia.

                  USG       USAID's        Other USG      Total USG     USAID's
                 Target    Contribution   Contributions    Progress    Contribution
                03/31/05    09/30/04        9/30/04        9/30/04     as a percent
  Individuals
   receiving
   palliative
      care      32,000       14,465           962          15,427         94%
     OVCs
   served by
    program     10,000       15,055            0           15,055         100%
  Individuals
   receiving
  counseling
  and testing   50,000       44,028            0           44,028         100%

While the U.S. Government appears to be well on the way to achieving the fiscal
year 2004 Emergency Plan care targets in Ethiopia, care targets are more than
doubling for fiscal year 2005 while the funding for these activities remains static.
We have two recommendations for how USAID/Ethiopia can leverage scarce
resources to maximize the impact of current funding levels.

Achievement of Future
Care Targets is at Risk

While the U.S. Government appears to be well on the way to achieving its fiscal
year 2004 Emergency Plan care targets in Ethiopia, USAID/Ethiopia’s care
partners told us that they are concerned about meeting fiscal year 2005 targets.
The target number of people receiving care and support is expected to increase
from 92,000 in fiscal year 2004 to 213,000 in fiscal year 2005, yet overall funding




                                                                                  18
for care activities in Ethiopia for fiscal year 2005 has not significantly increased
from fiscal year 2004 levels.

According to Mission officials, despite an overall increase in Emergency Plan
funding in Ethiopia from $43 million in fiscal year 2004 to $61 million in fiscal
year 2005, funding for care has remained relatively static because the Ethiopia
Emergency Plan Team applied a significant amount of that increase to treatment
and abstinence programs. The fact that care targets are increasing by 121,000 or
132 percent while funding for care activities is only minimally increasing
indicates that care funding for fiscal year 2005 may be inadequate and that
USAID/Ethiopia’s—and its partners’—ability to achieve these targets may be at
risk.13 Since O/GAC officials have indicated that mandatory funding allocations
are to be applied to the life of the Emergency Plan and not on an annual basis, the
Ethiopia country team has some leeway for how it allocates annual funding
between care, prevention and treatment programs. As a result, we are making the
following recommendation addressing the funding of Emergency Plan care
activities in Ethiopia.

        Recommendation No. 2: We recommend that USAID/Ethiopia
        engage the U.S. Government Emergency Plan Team to secure
        the additional funds necessary to attain fiscal year 2005 care
        targets.


Periodic Information-Sharing Sessions
Would Leverage Scarce Resources

While visiting project sites, we observed that USAID/Ethiopia’s partners were not
fully aware of each other’s programs. We believe that one factor contributing to
this situation was that neither the Mission nor the U.S. Government Emergency
Plan Team was holding meetings where all of their Emergency Plan partners
gathered to disseminate information. Accordingly, USAID/Ethiopia’s partners
could not capitalize on all potential efficiencies. For example, when the Director
of the International Orthodox Christian Charities (IOCC) Emergency Plan care
activity in Ethiopia discovered that Health Communication Partnership had
developed a multimedia training course for youth group leaders, he expressed an
interest in using those course materials for IOCC training sessions.

We believe that USAID/Ethiopia and its partners may be able to achieve greater
efficiency and magnify the impact of scarce funding by facilitating the exchange


13
   In their response to our draft report, USAID/Ethiopia officials noted that the fiscal year 2005
Emergency Plan budget for basic palliative care services in Ethiopia was 14 percent higher than
the fiscal year 2004 budget. However, this pales in comparison to the 132 percent increase in care
targets. The Mission also indicated that a fiscal year 2005 supplemental budget request including
additional funding for care services had been submitted to O/GAC in February 2005.


                                                                                               19
of information among HIV/AIDS partners. Consequently, we are making the
following recommendation.

       Recommendation No. 3: We recommend that USAID/Ethiopia
       leverage its scarce resources by coordinating with the other
       Emergency Plan agencies to hold periodic information-sharing
       sessions for all Emergency Plan partners to exchange
       methodologies for decreasing donor dependency, achieving
       program consistency and avoiding duplication of effort.


Partners Should Develop Strategies
For Sustainable Activities

Sustainability is an important concept in development. By definition, sustainable
development activities continue providing benefits beyond the initial donor
funding. On the other hand, the benefits of non-sustainable development
activities do not necessarily continue into the future.

The importance of sustainability is recognized in the five-year strategy for the
Emergency Plan. One of the strategic principles in that plan aims to develop
sustainable HIV/AIDS health care networks. By being sustainable, the benefits
provided by those networks should continue well beyond the five years covered
by the plan.

Despite a conceptual commitment to sustainability in the Emergency Plan
strategy, USAID/Ethiopia and its partners shared their concern that insufficient
consideration had been given to the issue of sustainability, primarily because there
was a rush to program Emergency Plan funds in order to hasten results.
Consequently, sustainability has not been as thoughtfully and deliberately planned
into all Emergency Plan activities in Ethiopia as is USAID’s standard practice.

However, this is not to say that USAID has not encouraged sustainability in some
cases. For example, we saw how a care project was incorporating sustainability
when we visited an HIV/AIDS orphan in a remote Ethiopian village that suffered
from chronic food shortages. One USAID/Ethiopia care partner encouraged
families caring for orphans to buy livestock in lieu of receiving a stipend to
establish an on-going livelihood. As a result, these families will have a means of
income that outlast the term of the monthly stipends to orphans provided by
another USAID/Ethiopia partner. While this was a good example of how
sustainability had been built into an activity, other Emergency Plan activities
lacked such features. As a result, the benefits of those activities may well not
extend beyond the completion of the activities. Therefore, we are making the
following recommendation addressing the issue of sustainability.




                                                                                 20
        Recommendation No. 4: We recommend that USAID/Ethiopia
        require that its partners develop strategies for the
        sustainability of their activities.


Treatment

USAID/Ethiopia’s HIV/AIDS activities are contributing a major supporting role
to the overall U.S. Government’s Emergency Plan targets for treatment. The
USG target for HIV/AIDS treatment in Ethiopia is to provide 15,000 patients with
Antiretroviral Therapy (ART) services in 25 hospitals by March 31, 2005.
USAID/Ethiopia met its goal to identify and procure ARV drugs for treating
HIV/AIDS patients, but, as of December 2004, the Emergency Plan Team was
still working towards meeting its target of 15,000 patients receiving ARV by
March 31, 2005. USAID and its USG partners believed that they would meet that
target because (1) based on a readiness criteria, 20 out of a planned 25 hospitals
met the minimum criteria to start ARV treatment, (2) the ARVs were purchased
and the first shipment was expected to arrive in December 2004, and (3) there
were a sufficient number of people already tested (200,000 in Addis Abba alone)
to provide a pool of HIV-positive patients ready for treatment. In terms of
funding for fiscal year 2004 treatment activities, USAID/Ethiopia received $5.5
million out of the $12.6 million budgeted for the U.S. Government effort in
Ethiopia of which approximately $3 million is for procurement of ARV drugs.

Even though the USG partners are progressing towards meeting the Emergency
Plan target for treatment, they face numerous challenges in meeting future targets.
The Emergency Plan Team’s five-year goal is have 210,000 individuals receiving
ARV treatment by 2008. One challenge for Ethiopia is its limited human capacity
to deliver this treatment. The current delivery model is to only provide ARVs
through physicians at specified hospitals.14 According to CDC officials, the
country has about 2,000 doctors, of which 300 or so are in the private sector, for a
population of 70 million. The country graduates about 180 general practitioners
a year, many of whom go into specialties. In contrast, the country has an
estimated 12,000 to 14,000 nurses.




14
  Current Ethiopian Ministry of Health policy stipulates that ARVs will only be distributed by
physicians.


                                                                                                 21
          Photograph taken November 17, 2004 by an OIG auditor of a
          Hospital in Tigray. This Hospital has 120 beds, 17 nurses and 7
          doctors to serve 1.2 million people.

The Emergency Plan Team hopes to address this issue through policy changes to
the ART delivery model. The team hopes to foster change from the current
physician-focused model to a team-based approach by 1) extending the
responsibilities of professionals such as nurses and 2) developing new cadres of
service providers. Another challenge to successful treatment is providing proper
nutrition as part of the treatment program. This issue is discussed in detail below.

Food Aid Funding Should Be Requested
For Emergency Plan Treatment Programs

In the Emergency Plan legislation, Congress recognized the importance of good
nutrition, noting that healthy and nutritious foods for individuals infected or living
with HIV/AIDS are an important complement to HIV/AIDS treatment. However,
USAID/Ethiopia—as well as the Emergency Plan Team in Ethiopia—did not
include food assistance in its country operation plans, an omission which may
diminish the effectiveness of its treatment programs. While Mission officials and
partners recognize the importance of good nutrition in the treatment of HIV/AIDS
in Ethiopia—which suffers periodic droughts and famines—they were under the
impression that O/GAC’s policy was to not fund food aid with Emergency Plan
funds. However, when queried, O/GAC officials stated that funding food
assistance in connection with treatment programs was a legitimate use of
Emergency Plan funds. Accordingly, USAID/Ethiopia—and the Emergency Plan
Team—should incorporate a food assistance component into its treatment
programs when formulating its annual country operation plan, which we address
in the following recommendation.


                                                                                   22
                       Recommendation No. 5: We recommend that USAID/Ethiopia
                       coordinate with the U.S. Government country team to request
                       Emergency Plan funding for food assistance in connection with
                       treatment programs included in the country operational plan
                       for Ethiopia.



Evaluation of   In its response to our draft report, USAID/Ethiopia concurred with our
Management      recommendations and described the actions taken and/or planned to address our
                concerns. The Mission’s comments and our evaluation of those comments are
Comments
                summarized below.

                In addressing Recommendation No. 1, the Mission indicated that it plans to
                resume a dialogue with REDSO/ESA on how to continue complimentary
                HIV/AIDS prevention and care efforts on the Djibouti side of the Djibouti-Addis
                Ababa High-Risk Corridor. Specifically, the Mission plans to hold a conference
                call with REDSO/ESA on this issue and to discuss it further with REDSO/ESA
                representatives at the Emergency Plan annual meeting in May 2005. We believe
                that a management decision has been reached on this recommendation.

                In addressing Recommendation No. 2, the Mission reported that the fiscal year
                2005 budget for basic palliative care services had increased by approximately 14
                percent over the fiscal year 2004 budget. It also indicated that a supplemental
                budget request including an additional $1.5 million for care services had been
                submitted. Based on this information, we believe that a management decision has
                been reached and that final action has been taken on this recommendation upon
                issuance of this report.

                In addressing Recommendation No. 3, the Mission indicated that Emergency Plan
                partners had been invited to serve as permanent members of working groups that
                meet weekly to focus on care, prevention, treatment and strategic information.
                These weekly meetings would appear to provide a regular forum where the
                partners could share information. Accordingly, we believe that a management
                decision has been reached and that final action has been taken on this
                recommendation upon issuance of this report.

                In addressing Recommendation No. 4, the Mission explained that sustainability
                was the cornerstone of all of its activities and cited an example of how it included
                an exit strategy in two of its fiscal year 2004 solicitations. It also stated that by
                June 2005, the USAID/Ethiopia HIV/AIDS Team planned to work with the
                Agreement Officer to review existing HIV/AIDS cooperative agreements to
                determine if they could be revised to incorporate an exit strategy, which would
                include a plan for sustainability. We believe that a management decision has been
                reached on this recommendation.



                                                                                                  23
In addressing Recommendation No. 5, the Mission notes that it has entered into a
dialogue with the World Food Programme and Food for Peace to address the issue
of food needs and to identify food supplementation sites that can better integrate
HIV/AIDS and treatment services. The Mission also points out that it has formed
an internal working team to develop a coordinated request for Food for Peace
Development Assistance Program in support of HIV/AIDS. We believe that the
Mission’s efforts in this area are commendable. However, as previously
mentioned in this report, O/GAC officials have indicated that funding food
assistance in connection with treatment programs was a legitimate use of
Emergency Plan funds. While we acknowledge USAID/Ethiopia’s dialogue with
the World Food Programme and Food for Peace, we believe that Emergency Plan
funds remain an untapped potential resource and that the Mission should still
attempt to request Emergency Plan funding food assistance in connection with
treatment. Consequently, a management decision has not been reached on this
recommendation.

Management’s comments are included in their entirety in Appendix II. (See page
27.)




                                                                               24
                                                                                      Appendix I

Scope and     Scope
Methodology
              The Performance Audit Division of the Office of Inspector General conducted
              this audit in accordance with generally accepted government auditing standards.
              Fieldwork for this audit was performed at the USAID Mission in Ethiopia,
              various Emergency Plan sites within Ethiopia and offices in Washington, D.C.
              between November 4, 2004 and January 14, 2005.

              This pilot audit was the first of a series of worldwide audits to be conducted by
              the Regional Inspector General offices. It was designed to answer the following
              three questions: (1) How has USAID/Ethiopia participated in the President’s
              Emergency Plan for AIDS Relief activities? (2) Did USAID/Ethiopia's HIV/AIDS
              activities progress as expected towards planned outputs in their grants,
              cooperative agreements and contracts? (3) Are USAID/Ethiopia's HIV/AIDS
              activities contributing to the overall U.S. Government's Emergency Plan targets?

              The scope also included reviewing USAID/Ethiopia’s role in the President’s
              Emergency Plan for AIDS Relief and their contribution to the U.S. Government’s
              total effort to meet targets.

              In conducting our audit, we assessed the effectiveness of USAID/Ethiopia’s
              internal controls with respect to consolidating reporting data to the U.S.
              Government annual progress report of its activities through September 30, 2004.
              We identified internal controls such as:

              •   USAID/Ethiopia’s process for monitoring its partners’ progress and
                  reporting; and

              •   USAID/Ethiopia’s partners’ process for compiling regional data to its
                  country-level reports.


              Methodology

              To answer audit objective one, we reviewed USAID/Ethiopia’s Country Operational
              Plan, interviewed contracting technical officers and partners, and reviewed other
              pertinent documentation. To answer audit objective two, we interviewed
              responsible Mission officials and in-country partners, as well as reviewed quarterly
              progress reports to determine progress towards outputs. To answer audit objective
              three, we reviewed the Emergency Plan Team’s annual report and reported targets
              and compared these to individual partner reports to determine their role in
              achievement of these targets.

              Additionally, we interviewed USAID officials in Washington, D.C. as well as its
              international partners providing program services to Ethiopia. We reviewed


                                                                                               25
Mission-maintained work plan files and progress reports of implementing partners
to compare planned outputs with progress. We conducted site visits to partners
and beneficiaries involved in prevention, care and treatment and observed
facilities and operations.

A materiality threshold was not established for this audit since it was not
considered to be applicable given the qualitative nature of the audit objective,
which focused on the USAID’s participation, progression and contribution
towards the overall U.S. Government's Emergency Plan targets.




                                                                             26
                                                                                               Appendix II


Management
Comments                                             MEMORANDUM



             Date:            March 25, 2005

             To:              Nathan S. Lokos, IG/A/PA Director

             From:            William Hammink, USAID/Ethiopia Director /s/

             Subject:         Mission Comments on Report No. 9-663-05-00X-P (Audit of
                              USAID/Ethiopia’s Implementation of the President’s Emergency Plan for
                              AIDS Relief)


             This memorandum contains USAID/Ethiopia’s comments on the subject audit report
             transmitted on March 15, 2005. We greatly appreciate your insights, thoughtful
             assessment, and understanding of the complexities of addressing HIV/AIDS in Ethiopia.
             The following is a discussion of the actions taken by USAID/Ethiopia in response to the
             recommendations. It should be noted that because all HIV/AIDS programs, including
             those managed by USAID, are now implemented within the broader rubric of PEPFAR
             the USAID Mission at times does not have the latitude to take unilateral action.
             Therefore, the Mission respectfully suggests that this and subsequent audits also be
             provided to the Office of the Global AIDS Coordinator (OGAC).

             Recommendation No. 1:        We recommend that USAID/Ethiopia request that
             USAID’s Regional Economic Development Service Office for East and Southern
             Africa (REDSO) fund HIV/AIDS prevention activities along the Djibouti side of the
             Djibouti-Addis Ababa High-Risk Corridor.

             Action Taken: USAID/Ethiopia has long recognized that inadequate resource provision
             on the Djibouti side of Djibouti-Addis Ababa High-Risk Corridor compromises the
             Mission’s ability to prevent and reduce HIV/AIDS in Ethiopia. For this reason,
             USAID/Ethiopia welcomes the above recommendation and will continue to advocate for
             the extension of HIV/AIDS prevention and care activities in the corridor region.

             USAID/Ethiopia in April 2004 began discussions with the REDSO/ESA Deputy Director
             and the REDSO/ESA HIV/AIDS team leader about the need to continue programming
             along the corridor. These discussions resulted in a USAID/Ethiopia and REDSO/ESA
             joint visit to the High Risk Corridor Initiative (HRCI) sites in Djibouti City. During the trip,
             USAID/Ethiopia briefed REDSO/ESA on the importance of the HRCI activities to both
             Ethiopia and Djibouti in curbing the spread of HIV/AIDS among the corridor’s highly-
             mobile, at-risk populations.

             With the opening of the Djibouti Mission, USAID/Ethiopia no longer can fund the VCT and
             care services activities in Djibouti and had advocated that REDSO/ESA assume this
             responsibility. Unfortunately, REDSO/ESA has indicated that no HIV/AIDS funds were
             available for this purpose.




                                                                                                            27
Based upon the above recommendation, USAID/Ethiopia plans to resume dialogue with
REDSO/ESA on how to continue complimentary HIV/AIDS prevention and care efforts on
the Djibouti side of the corridor. USAID/Ethiopia forwarded to REDSO/ESA and
USAID/Djibouti the draft audit report along with a request for subsequent dialogue to
explore the possibility of a coordinated corridor response. The Mission is proposing that
a conference call be held by April 15, 2005, to discuss any change in REDSO/ESA’s
current or future availability of funding for corridor activities. Additionally, we will continue
our dialogue with REDSO/ESA at the PEPFAR Annual Meeting in May, where time can
be set aside to meet with those REDSO/ESA representatives in attendance.

We believe that the Mission has taken all actions within its span of control to address this
recommendation and request that IG/A/PA close Recommendation No. 1 accordingly.

Recommendation No. 2:           We recommend that USAID/Ethiopia engage the U.S.
Government Emergency Plan Team to secure the additional funds necessary to
attain fiscal year 2005 care targets.

Action Taken: We appreciate the auditor’s assessment that adequate funding is
required to reach our FY05 care targets, and fully support the recommendation. However,
we find it necessary to clarify some of the points made.

First, the audit contends that there was no increase in funding for care activities from
FY04 to FY05 when, in fact, the budget for basic palliative care services increased over
the period by $659,600, rising from $4,685,400 to $5,345,000.

Second, while it may be true that mandatory funding allocations are to be applied over
the life of the Emergency Plan, OGAC also mandates that we adhere to annual
earmarks. We will seek clarification from OGAC on this matter at the PEPFAR Annual
Meeting.

Finally, to meet its care targets, the audit suggests that USAID/Ethiopia consider re-
allocating existing funding from prevention and treatment to care services. However, the
increase in targets and the corresponding increase in required funding for all program
categories make this suggestion challenging to enact.

Nevertheless, USAID/Ethiopia recognizes the need for additional care funding as
evidenced by the FY05 supplemental that was submitted to OGAC on February 25, 2005,
by the Deputy Chief of Mission. The supplemental requested an additional $1.5 million
for care services. USAID/Ethiopia will continue to seek additional opportunities to
increase funding for care and support activities.

Noting that budgetary targets are set by OGAC and must be strictly adhered to, we
believe the Mission has taken all actions possible to address this recommendation and
request that IG/A/PA close Recommendation No. 2 accordingly.

Recommendation No. 3:         We recommend that USAID/Ethiopia leverage its
scare resources by coordinating with the other Emergency Plan agencies to hold
periodic information-sharing sessions for all of Emergency Plan partners to
exchange methodologies for decreasing donor dependency, achieving program
consistency and avoiding duplication of effort.

Action Taken: USAID/Ethiopia fully supports this recommendation, and has established
mechanisms and forums that are enhancing coordination and helping achieve the
recommended objectives outlined above.




                                                                                              28
The Country Operational Plan (COP), approved on January 13, 2005, institutionalized a
coordinated approach by establishing working groups in the areas of prevention, care,
treatment, and strategic information. Representatives of the four Emergency Plan
agencies – USAID/Ethiopia, the Centers for Disease Control (CDC), the Department of
State and the Department of Defense – chair the working groups and/or serve as core
members.

At the annual USG Partner’s Meeting on February 25, 2005, representatives of the
cooperating agencies were invited to discuss implementation of this year’s COP. At the
meeting, break-out sessions on the four working group priorities were convened during
which attendees discussed harmonization of their approaches and activities. Topics
included event and activity coordination, material sharing, geographic targeting, cross-
cutting themes such as stigma reduction and gender, and resource leveraging from non-
PEPFAR partners such as the Global Fund to Fight Malaria, Tuberculosis and HIV/AIDS.
Subsequently, the partners were invited to serve as permanent members of the working
groups that meet on a weekly basis.

On April 5, 2005 a Stakeholders’ Meeting, to be attended by implementing partners,
government officials and donors, will provide additional opportunities for information
sharing and discussion of lessons learned.

In yet another example of USAID/Ethiopia’s commitment to coordination, the agency
participates in the National HIV/AIDS Partnership Forum established by the Government
of Ethiopia and involving government agencies, NGOs, community organizations, and
associations of youth, women and donors. The forum provides a mechanism for avoiding
duplication of efforts, enabling the sharing of experiences, increasing effective utilization
of human and other resources, and preparing a unified plan.

We believe the necessary action has been taken to resolve this recommendation and
request that IG/A/PA close Recommendation No. 3 accordingly.

Recommendation No. 4:         We recommend that USAID/Ethiopia require that its
partners develop strategies for the sustainability of their activities.

Action Taken: As sustainability is the cornerstone of all our activities, we welcome this
recommendation, and are taking important steps to ensure the program activities we
support continue over time.

For example, inclusion of an exit strategy was an integral part of the design and selection
criteria for two FY04 solicitations, one of which was for Orphans and Vulnerable Children
and the other for the Private Sector Program. USAID/Ethiopia will now require
submission of an exit strategy in all new procurements.

An emphasis on sustainability will also affect USAID/Ethiopia’s existing agreements. By
June 2005, the USAID/Ethiopia HIV/AIDS Team will work with the Agreement Officer to
review existing HIV/AIDS cooperative agreements to determine if they can be revised to
incorporate an exit strategy, which would include a plan for program sustainability.

The leveraging of non-PEPFAR resources is essential to sustaining over time program
activities initiated by USAID/Ethiopia under PEPFAR. However, USAID/Ethiopia
recognizes that some program elements, such as the procurement and provision of
ARTs, currently cannot be sustained without donor assistance, and efforts to address the
long-term consequences of this continue to be discussed.

We believe the Mission has put into place the necessary systems to address this
recommendation. Nevertheless, the Mission will take actions identified above and will



                                                                                           29
request closure of this recommendation once existing HIV/AIDS Cooperative Agreements
have been reviewed and, where needed, amended to include a plan for sustainability.
The Mission, in conjunction with the ETAEP Team, will continue to monitor sustainability
through its Strategic Information (SI) component.

Recommendation No. 5:          We recommend that USAID/Ethiopia coordinate with
the U.S. Government country team to request Emergency Plan funding for food
assistance in connection with treatment programs included in the country
operational plan for Ethiopia.

Action Taken: USAID/Ethiopia is in full agreement with this recommendation, which
recognizes the critical links between nutrition and HIV/AIDS treatment and care.

In Ethiopia, nearly 50% of the population is malnourished. Lack of nutrition negatively
impacts the transmission and progression of HIV. Within this context, meeting the
nutritional requirements of people living with HIV/AIDS poses a considerable challenge.
Nevertheless, USAID/Ethiopia recognizes that maintaining the nutritional status of HIV
positive people is important in enabling them to adhere to treatment and live productive
lives.

Nutritional supplementation continues to be a priority in this year’s activities. In response to
the recommendation, USAID/Ethiopia has entered into dialogue with the World Food
Programme and Food For Peace (FFP) to address this fundamentally important issue, and
identify food supplementation sites that can better integrate HIV/AIDS care and treatment
services.

The visit to Ethiopia by Tony Hall, Ambassador to the U.N. Agencies for Food and
Agriculture, during the week of March 14, 2005, further called attention to the linkages
between HIV/AIDS and nutrition. Ambassador Hall’s itinerary included a visit to a WFP food
distribution site that is linked with PEPFAR OVC and care and support activities.

USAID/Ethiopia is a founding member and active participant in the HIV/AIDS and
Vulnerability Group that in the upcoming year is planning to explore the intersection between
HIV/AIDS, vulnerability and nutrition as a basis for future program activities.

In addition, USAID/Ethiopia is forming an internal working team with the Office of Assets,
Livelihoods and Transition, which manages all of the Mission’s Title II food commodities, and
with the HIV/AIDS Team to develop a coordinated request for a Food for Peace
Development Assistance Program in support of HIV/AIDS.

We believe the necessary actions have been initiated and will request closure of this
recommendation once the Mission’s proposal for food assistance has been submitted.

We appreciate the opportunity to respond to these recommendations and to share with
you the actions we are taking to address the audit recommendations.




                                                                                             30
                                                                   Appendix III


List of
Acronyms

                          ACRONYMS

           AIDS    Acquired Immunodeficiency Syndrome

           ART     Antiretroviral Therapy

           ARV     Antiretroviral

           CDC     Centers for Disease Control and Prevention

           HIV     Human Immunodeficiency Virus

           NGO     Non-Governmental Organization

           O/GAC   Office of the U.S. Global AIDS Coordinator
                    (at the U.S. Department of State)

           OVC     Orphans and Vulnerable Children

           PMTCT   Prevention of HIV/AIDS Mother-to-Child Transmission

           USAID   U.S. Agency for International Development

           VCT     Voluntary Counseling and Testing




                                                                            31
